<html>
<title> - HEARING TO CONSIDER THE NOMINATIONS OF KRYSTA HARDEN, PEARLIE S. REED, RAJIV J. SHAH, AND DALLAS P. TONSAGER</title>
<body><pre>[Senate Hearing 111-244]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-244

                  HEARING TO CONSIDER THE NOMINATIONS
                   OF KRYSTA HARDEN, PEARLIE S. REED,
                 RAJIV J. SHAH, AND DALLAS P. TONSAGER

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION


                               __________

                              MAY 7, 2009

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov





                  U.S. GOVERNMENT PRINTING OFFICE
54-568 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado

                Mark Halverson, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                 Vernie Hubert, Minority Chief Counsel

                                  (ii)








                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Hearing to Consider the Nominations of Krysta Harden, Pearlie S. 
  Reed, Rajiv J. Shah, and Dallas P. Tonsager....................     1

                              ----------                              

                         Thursday, May 7, 2009
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, U.S. Senator from the State of Iowa, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Casey, Hon. Robert P., Jr., U.S. Senator from the State of 
  Pennsylvania...................................................    23
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     2
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...    25
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    26
Lincoln, Hon. Blanche L., U.S. Senator from the State of Arkansas    11
Sandlin, Hon. Stephanie Herseth, a Representative in Congress 
  from the State of South Dakota.................................     4

                                Panel I

Harden, Krysta, Nominee, Assistant Secretary of Congressional 
  Relations, U.S. Department of Agriculture......................     9
Reed, Pearlie S., Nominee, Assistant Secretary of Administration, 
  U.S. Department of Agriculture.................................    12
Shah, Rajiv J., M.D., Nominee, Under Secretary of Research, 
  Education and Economics, U.S. Department of Agriculture........    14
Tonsager,Dallas P., Nominee, Under Secretary of Rural 
  Development, U.S. Department of Agriculture....................     6
                              ----------                              

                                APPENDIX

Prepared Statements:
    Thune, Hon. John.............................................    32
    Harden, Krysta...............................................    33
    Reed, Pearlie S..............................................    36
    Shah, Rajiv J................................................    39
    Tonsager, Dallas P...........................................    42
Document(s) Submitted for the Record:
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Krysta Harden..............................    48
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Pearlie S. Reed............................    62
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Rajiv J. Shah..............................    79
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Dallas P. Tonsager.........................    99
Question and Answer:
Harkin, Hon. Tom:
    Written questions to Pearlie S. Reed.........................   138
    Written questions to Rajiv J. Shah...........................   139
    Written questions to Dallas P. Tonsager......................   145
Bennet, Hon. Michael:
    Written questions to Krysta Harden...........................   137
    Written questions to Dallas P. Tonsager......................   153
Chambliss, Hon. Saxby:
    Written questions to Rajiv J. Shah...........................   142
    Written questions to Dallas P. Tonsager......................   147
Grassley, Hon. Charles E.:
    Written questions to Krysta Harden...........................   136
    Written questions to Rajiv J. Shah...........................   143
    Written questions to Dallas P. Tonsager......................   153
Lincoln, Hon. Blanche L.:
    Written questions to Rajiv J. Shah...........................   140
Nelson, Hon. Ben:
    Written questions to Rajiv J. Shah...........................   142
    Written questions to Dallas P. Tonsager......................   148
Roberts, Hon. Pat:
    Written questions to Dallas P. Tonsager......................   149
Thune, Hon. John:
    Written questions to Krysta Harden...........................   136
    Written questions to Rajiv J. Shah...........................   143
    Written questions to Dallas P. Tonsager......................   151
Harden, Krysta:
    Written response to questions from Hon. Charles E. Grassley..   136
    Written response to questions from Hon. John Thune...........   136
    Written response to questions from Hon. Michael F. Bennet....   137
Reed, Pearlie S.:
    Written response to questions from Hon. Tom Harkin...........   138
Shah, Rajiv J.:
    Written response to questions from Hon. Tom Harkin...........   139
    Written response to questions from Hon. Blanche L. Lincoln...   140
    Written response to questions from Hon. Saxby Chambliss......   142
    Written response to questions from Hon. Ben Nelson...........   142
    Written response to questions from Hon. Charles E. Grassley..   143
    Written response to questions from Hon. John Thune...........   143
Tonsager, Dallas P.:
    Written response to questions from Hon. Tom Harkin...........   145
    Written response to questions from Hon. Saxby Chambliss......   147
    Written response to questions from Hon. Ben Nelson...........   148
    Written response to questions from Hon. Pat Roberts..........   149
    Written response to questions from Hon. Charles E. Grassley..   153
    Written response to questions from Hon. John Thune...........   151
    Written response to questions from Hon. Michael F. Bennet....   153
Additional Material(s) Submitted for the Record:
    Various organizations, letters of endorsement for Krysta 
      Harden.....................................................   156
    Various organizations, letters of endorsement for Rajiv J. 
      Shah.......................................................   160
    Various organizations, letters of endorsement for Dallas P. 
      Tonsager...................................................   162


 
                  HEARING TO CONSIDER THE NOMINATIONS
                   OF KRYSTA HARDEN, PEARLIE S. REED,
                 RAJIV J. SHAH, AND DALLAS P. TONSAGER

                              ----------                              


                         Thursday, May 7, 2009

                                       U.S. Senate,
           Committee on Agriculture, Nutrition and Forestry
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:37 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Tom Harkin, 
Chairman of the Committee, presiding.
    Present: Senators Harkin, Lincoln, Casey, Klobuchar, 
Bennet, Chambliss, Lugar, Cochran, Johanns, and Thune.

 STATEMENT OF HON. TOM HARKIN, U.S. SENATOR FROM THE STATE OF 
   IOWA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Harkin. The Senate Committee on Agriculture, 
Nutrition and Forestry will come to order.
    Today, the Committee meets to hear from four individuals 
nominated by President Obama to important positions at the 
Department of Agriculture: Dallas P. Tonsager for Under 
Secretary for Rural Development; Krysta Harden for Assistant 
Secretary for Congressional Relations; Pearlie S. Reed for 
Assistant Secretary for Administration; and Rajiv J. Shah for 
Under Secretary for Research, Education and Economics.
    I will just make a few opening comments, but more formal 
introductions will follow momentarily.
    We will look to the new Under Secretary for Rural 
Development for leadership and skill in helping our nation's 
rural communities tackle some very big challenges, including 
economic recession, job loss, lack of services, and aging 
infrastructure. In combination, the New Farm Bill that we 
passed last year, the Food, Conservation and Energy Act, along 
with the recent American Recovery and Reinvestment Act, the so-
called Stimulus Bill, contain important initiatives and 
investments for USDA rural development to carry out.
    Among the key objectives are supporting new and expanding 
businesses, boosting renewable energy development, upgrading 
outdated and deficient rural water and waste water systems, 
expanding broadband telecommunications, and attracting new 
public and private investments in rural America.
    We rely on the Assistant Secretary for congressional 
relations to keep the lines of communication open and to supply 
us with the information we need for crafting legislation and 
responding to the concerns of people that we serve.
    Effective management by the Assistant Secretary for 
Administration is, in practical terms, vital to the success of 
every program, an undertaking at the Department of Agriculture. 
Simply put, USDA cannot function without proper attention to 
personnel, procurement and day-to-day operations.
    The Under Secretary for Research, Education and Economics 
is now also the chief scientist at USDA with the responsibility 
for carrying out USDA's own in-house research activities, 
supporting research, education and extension at our nation's 
state, land grant and other institutions, and maintaining 
USDA's vital economics and statistics functions. The manifold 
benefits of these activities extend throughout our society, 
from abundant food and fiber to renewable energy, bio-based 
materials, and a better way of life for all Americans.
    So those are the four departments that we are looking at 
today and the nominees for those. I have refrained from 
mentioning their names because I know certain people want to 
have the pleasure of introducing these individuals. And so I 
will recognize individuals for the purposes of introduction. 
But before I do that, I would like to yield to your ranking 
member, Senator Chambliss, for his opening comments.
    I recognize Senator Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Well, thank you, Mr. Chairman, and 
welcome to all of our nominees out there. We are very pleased 
to see you here, pleased to see you willing to commit yourself 
to America's farmers and ranchers, and we look forward to this 
hearing today.
    Mr. Chairman, thank you for holding this hearing to 
consider the nominations of Mr. Tonsager, Dr. Shah, Mr. Reed 
and Ms. Harden for appointments to USDA. I look forward to 
hearing the testimony from each of you, and I know that you 
would agree with me that it is vital that we have good 
leadership in place at the Department to deal with the many 
issues, including implementation of the Farm Bill and the 
Recovery Act, as well as an important role in monitoring the 
H1N1 virus outbreak.
    I am pleased that during today's proceedings, we are 
considering the Under Secretary for Rural Development. As our 
country faces economic and financial hardships, our rural 
citizens are certainly not exempt. And although 2008 saw a 
record high of net farm income, recent Bureau of Labor 
statistics show that rural counties are losing jobs at a faster 
rate than their urban counterparts.
    This is particularly true in rural areas that rely more on 
the manufacturing sector than on the traditional farm income. 
They have now lost nearly 5 percent of their job since the 
recession began in December of 2007. This report is disturbing, 
but I believe that the opportunities on the horizon have never 
been brighter for rural America. And I am hopeful that 1 day in 
the near future, the use of renewables, such as biomass, will 
fulfill their potential of becoming a major source of energy 
production.
    This development will positively affect all our sectors of 
rural America and the country at large through our businesses, 
industries and consumers. The Rural Development Agency is 
clearly in a position to assist in that effort in addition to 
helping improve the overall quality of life for rural citizens 
through the expansion of broadband access and support of basic 
public facilities and services.
    Mr. Tonsager, I can see that you have a deep breadth of 
knowledge and experience in all things rural, from growing up 
on a dairy farm to your public service as state director of 
Rural Development in South Dakota, and most recently, serving 
on the Farm Credit Administration Board of Directors. I look 
forward to hearing your perspective on America's rural economy.
    Dr. Shah, our nation's agricultural research system is held 
up as a model for other countries. The Federal, state and local 
investment in agricultural research, education and extension 
has led to increased productivity and yields, new crop 
varieties, and a multitude of techniques and practices to help 
us preserve our natural resource base.
    Today, this system is under strain. The entire system is 
underfunded. Within the administration, USDA struggles for 
budgetary support. In Congress, the system is pitted against 
other funding priorities. The 2008 Farm Bill made significant 
changes to some agricultural research programs. The changes 
provide an opportunity for the agricultural research system to 
rebuild and meet the challenges of the 21st century.
    As you undertake this task in your role of under secretary 
and chief scientist of the Department, I encourage you to work 
with Congress and get to know the land-grant universities and 
the USDA research agencies because we are all partners in this 
effort. Please do not let these challenges get you down. You 
have a good system and good people already in place, and they 
need a champion. And I hope you are ready to be that champion, 
and I look forward to working with you.
    Mr. Reed, you have spent more than 30 years at USDA, and I 
am pleased that you are willing to return to public service at 
the Department once again. The office for which you are 
nominated is a tremendous responsibility, and you will be 
responsible for providing departmental leadership on a variety 
of management services essential to the direction and operation 
of the Department's mission and goals.
    Perhaps the most critical role you will have involves the 
protection and well-being of the Department's greatest 
resource, its employees. USDA employees nationwide will count 
on you to act in their best interest and provide them an 
environment to effectively and efficiently serve our 
constituents. We appreciate your interest in serving.
    Mr. Chairman, I will hold my remarks regarding Krysta 
Harden for when I have the pleasure of introducing her to the 
Committee. So thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much, Senator Chambliss.
    We are joined today by our distinguished colleague from the 
House side, a very distinguished member of the House 
Agriculture Committee and here for the purposes of 
introductions. And that is the way we will go. We will start 
with Mr. Tonsager, then Ms. Harden, and then Mr. Reed, and then 
Dr. Shah.
    So we welcome Congresswoman Herseth Sandlin to the 
Committee, and I would yield to you for purposes of an 
introduction.

 STATEMENT OF HON. STEPHANIE HERSETH SANDLIN, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF SOUTH DAKOTA

    Ms. Sandlin. Chairman Harkin, Senator Chambliss and members 
of the Committee, thank you very much for allowing me the 
opportunity to introduce a fellow South Dakotan and my very 
good friend, Mr. Dallas Tonsager, as the Senate Agriculture 
Committee considers his nomination for the United States 
Department of Agriculture Under Secretary for Rural 
Development.
    Together with Senator Johnson, who, unfortunately, could 
not be here in person with us today, we are pleased to support 
Dallas' nomination and recommend him wholeheartedly for this 
position. I can think of no one better qualified for this 
important appointment than Dallas. He brings to this position 
an extraordinary work ethic and a history of working in a 
bipartisan fashion for the betterment of rural America.
    I have known Dallas, his wife, Sharon, and their sons for 
many years. And I know that Dallas is widely respected in no 
small part because of his constructive approach, his informed 
and innovative ideas, and his honest, forthright communication. 
His advice, counsel and creative thinking have served many 
policymakers, including me, over the years.
    In partnership with his brother, Doug, Dallas owns Plain 
View Farm in Oldham, South Dakota, a family operation that 
includes corn, soybeans, wheat and hay. His family farming 
roots and extensive leadership experience will substantially 
contribute to shaping a rural agenda that bolsters and enhances 
our rural communities and to seizing opportunities for rural 
America to help solve many of the challenges facing our country 
today; at the same time, creating jobs for the next generation 
of Americans who choose to live and raise their families in 
rural communities.
    Dallas has held board positions on the Farm Credit 
Administration and Farm Credit System Insurance Corporation and 
contributed to economic development as the executive director 
of the South Dakota Value-Added Agriculture Development Center.
    He was appointed by President Clinton as the South Dakota 
State Rural Development Director in 1993 and was named one of 
two outstanding state directors by USDA in 1999. As president 
of the South Dakota Farmers Union, Dallas worked to advance 
farming and ranching priorities and to preserve the quality of 
life in rural America. His record speaks for itself with 
respect to the accomplishments and progress he has achieved.
    I am confident that Dallas would be among the strongest 
assets that USDA could have in helping to implement the 
priorities of President Obama's administration. Further, our 
rural communities, rural businesses, and rural citizens will 
surely benefit from having Dallas as their advocate, and I urge 
the members of this committee and the Senate to confirm Dallas 
Tonsager's nomination.
    Thank you. Thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much, Congresswoman. I 
appreciate your being here for this introduction.
    Here is the way we will proceed. First of all, I have to 
administer and oath and ask a question to all of you. We will 
hear Mr. Tonsager's opening statement. I will then yield to 
Senator Chambliss for an introduction and a statement, and then 
Senator Lincoln for Mr. Reed and a statement, and then Senator 
Cantwell, who is on her way, will be here for purposes of 
introduction.
    So if I could ask all four of you to rise; raise your right 
hand.
    Do you swear to tell the truth, the whole truth, and 
nothing but the truth?
    Mr. Tonsager. Yes.
    Ms. Harden. Yes.
    Mr. Reed. Yes.
    Mr. Shah. Yes.
    Chairman Harkin. Thank you.
    Do you agree that if confirmed, you will appear before any 
duly constituted committee of the Congress if asked?
    Mr. Tonsager?
    Mr. Tonsager. Yes.
    Chairman Harkin. Ms. Harden?
    Ms. Harden. Yes.
    Chairman Harkin. Mr. Reed?
    Mr. Reed. Yes.
    Chairman Harkin. Dr. Shah?
    Mr. Shah. Yes.
    Chairman Harkin. Please be seated. Thank you very much.
    Well, Mr. Tonsager, a great introduction. Welcome. You are 
not too much of a stranger to this committee. Welcome back, I 
should say. And before you start your statement, perhaps you 
would like to introduce your family that is here.
    I ask all, because they have great families here, and we 
would like to know who you have got here.
    Mr. Tonsager. Thank you, Senator. And, yes, I would very 
much like to, if I could.
    First of all, my wife, Sharon; my son, Keith, and his wife, 
Lindsey; my son, Joshua; my sister-in-law, Sharon, as well; my 
brother, Dennis; my sister, Diane; and my brother, Douglas, who 
actually does the work in our family.
    Chairman Harkin. Welcome here. Welcome, everybody. Thank 
you for coming.
    [Applause.]
    Chairman Harkin. I could make some crack about is there 
anyone left in South Dakota, but I will refrain.
    [Laughter.]
    Chairman Harkin. I will refrain.
    Please proceed, Mr. Tonsager.
    And all of your statements will be made part of the record 
in their entirety. If you would like to sum up, we would 
appreciate that.
    Mr. Tonsager.
    Mr. Tonsager. Thank you very much, Senator.

 TESTIMONY OF DALLAS P. TONSAGER, NOMINEE, UNDER SECRETARY OF 
       RURAL DEVELOPMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Tonsager. Thank you, Chairman Harkin, Senator 
Chambliss, members of the Committee. It is a privilege to sit 
before the Committee, which continues to provide the leadership 
and foresight for the benefit of all agriculture and rural 
America. Specifically, I want to acknowledge your leadership, 
Chairman Harkin and Ranking Member Chambliss, and should I be 
confirmed, I will enjoy working with you to improve the quality 
of life for rural Americans.
    I also want to thank our good friend, Congresswoman 
Stephanie Herseth Sandlin, for her introduction today. I have 
learned a great deal about how to help rural communities by 
watching Congresswoman Herseth Sandlin's leadership in South 
Dakota.
    Thank you, Stephanie.
    It is an honor to appear before you today as President 
Obama's choice to be the next Under Secretary of Rural 
Development at the United States Department of Agriculture.
    Now, here is the part where I would have put my family in, 
Senator, so thank you for letting me do that in advance.
    It is indeed a great honor and privilege to be selected by 
President Obama to carry out his vision for the revitalization 
of rural America, and I am excited by the opportunity to serve 
with Secretary Vilsack, who is a strong advocate for America's 
agricultural producers and defender of rural residents 
throughout this country. My enthusiasm is tempered only by the 
realization of the challenges rural Americans face everyday 
with lost jobs, disappearing essential services, out-migration, 
and crumbling infrastructure.
    We find ourselves in difficult times. President Obama's 
vision for America is aggressive and will take commitment, 
sacrifice and perseverance to be successful. I want the members 
of this committee to know that if you should confirm me, I will 
accept this responsibility.
    Mr. Chairman, I am not telling you, or the members of the 
Committee, anything you do not already recognize. You know all 
too well the challenges we face in addressing the needs of the 
50 million Americans residing in our small towns and rural 
communities. The Farm Bill written by this committee and passed 
last year, and the stimulus packaged passed earlier this year, 
provide the foundation and funding for many of the president's 
initiatives.
    The president has rolled out an appropriately ambitious and 
multifaceted plan to stimulate the faltering economy. In the 
area of rural economic development, the president's vision 
focuses on several important goals. First and foremost, the 
funding provided in the stimulus package to rural development 
will be allocated as quickly as possible and at the same time, 
ensuring that it is ordered in a fair, transparent and 
responsible manner.
    Renewable energy is not only critically important for the 
rural economy, it is important for the entire U.S. economy and 
national security. The burgeoning renewable energy industries 
will grow the U.S. economy, make the U.S. more energy 
independent, and help address climate change. USDA rural 
development has a number of programs to advance renewable 
technologies that will bring skilled jobs to rural communities.
    Broadband access to rural residents is also a key to 
bringing important services to rural residents and providing 
skilled jobs. Thanks to this committee's insistence, the 
stimulus package provided significant additional funding for 
the development of broadband access. I know that this is an 
important issue for the members of this committee.
    In all of these areas, I pledge to work with you and your 
staffs to ensure that we identify the communities with the 
greatest need.
    Of course, rural development has many other programs that 
will aid rural residents in their communities so that we can 
thrive and prosper. Rural development has a strong portfolio of 
housing community facilities, business, and utility programs 
that provide the building blocks for community development.
    Agriculture and rural communities are dependent upon one 
another. It is my experience that farmer-owned, value-added 
enterprises can breathe new life into small towns and 
communities. Rural development's cooperative services and the 
value-added programs provide the agriculture producers the tool 
to work together to receive the maximum value from their land 
and their labor and bring their jobs to a community.
    It takes teamwork and cooperation to be successful, 
especially within rural development. If confirmed, I will work 
to bring all parties to the table: community leaders, planning 
districts, councils of governments, cooperative development 
centers, community development corporations, land-grant 
universities, and others to develop projects and successful 
development strategies.
    As a former state director for rural development, I know 
and have worked with the employees at USDA's Rural Development 
and have great respect for the work they do and their 
dedication to the mission of rural economic development. If 
confirmed, I will look forward to rejoining my former 
colleagues, and together we will do our very best to find 
solutions to the challenges rural communities face. I will be a 
tireless advocate for the constituents we are all sworn to 
serve.
    With that in mind, I also want to emphasize my commitment 
to working to resolve any outstanding civil rights claims, 
whether in program or employment practices. If confirmed, I 
will not tolerate any form of discrimination in the agencies 
that I will be leading, and I will look forward to working with 
Secretary Vilsack to address this very important issue.
    Finally, Mr. Chairman, as a farmer and lifelong resident of 
a rural community, as a South Dakota rural development director 
during the Clinton administration, as an executive director for 
the South Dakota Value-Added Agriculture Center, and currently 
as a Farm Credit Administration board member, I have spent most 
of my professional adult life in and around agriculture and 
rural communities and, challenges notwithstanding, if 
confirmed, I look forward to rolling up my sleeves to do what I 
can to renew the hopes of rural Americans everywhere, so that 
America, specifically rural America, will once again prosper. 
Thank you.
    [The prepared statement of Mr. Tonsager can be found on 
page 42 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Tonsager.
    Again, we will withhold questions until everyone's made 
their statements.
    Now, I will yield to our distinguished ranking member, 
Senator Chambliss, for purposes, again, of an introduction of 
someone who is certainly not a stranger around here.
    Senator Chambliss. Well, thank you very much, Mr. Chairman. 
And Krysta Harden is not a stranger to this crowd. She has been 
on the Hill for many years, went off the Hill, and is now 
willing to come back. And we are very pleased about that. And I 
know she will introduce her family, but I know her because of 
her family.
    Her husband, Congressman Charles Hatcher, has been my dear 
friend for longer than he and I either care to disclose in 
public here. But we practiced law with and against each other 
in South Georgia for many years, and he is a great guy and a 
dear friend.
    I see her sister, JaBra, back there.
    JaBra, it is great to see you. Glad to have you here 
supporting Krysta.
    I actually met Krysta Harden in 1980, while we were both 
working on Charles' campaign for his first run at Congress, in 
which he was successful because of Krysta.
    [Laughter.]
    Senator Chambliss. She proceeded on to graduate from the 
University of Georgia. She is a great loyal Georgia Bulldog, 
but she also is a huge baseball fan. One thing I remember about 
Krysta is that she told me one time during the 1980's that she 
was putting her name in to buy Washington baseball tickets with 
the hope that 1 day that we would have a baseball team in 
Washington. So she got in line early.
    She grew up on a farm in Mitchell County, Georgia. Her 
parents, Jamie and Jimmie--or Hard Rock, as we know him--Harden 
are just salt-of-the-earth people. And Jimmie is a hardworking 
farmer, and Krysta knows what hard work on a farm is all about. 
And she certainly knows agriculture inside and out from a 
grassroots perspective.
    She served on Charles' staff for many years; ultimately 
became his chief staff, then went to the committee and served 
as staff director on the committee, dealing primarily with 
peanuts and tobacco back, then, when tobacco was a program.
    She went downtown for a while, and then now, in 2004, 
became the director of the National Association of Conservation 
Districts. And she has done a great job down there. She has a 
real passion, Mr. Chairman, along with you, for conservation. 
And I am very pleased to see someone with her experience, her 
passion, her commitment to agriculture, and her energy, which 
is unbelievable, to be willing to come to the Department.
    She will have a very important role with this Committee 
because she is going to be responsible for interacting with us 
on a regular daily basis, and it is going to be a real pleasure 
to work with her.
    Krysta, we are pleased to have you here, pleased to have 
you being willing to come back into public service.
    Mr. Chairman, it is my pleasure to present to the Committee 
Krysta Harden.
    Chairman Harkin. Very good.
    Well, Ms. Harden, again, while I do not share that long 
history, we do share some history in the more recent past. But 
I share the sentiments expressed by my friend and my colleague. 
Welcome to the Committee. And even though he has introduced 
your family, go ahead and do it for me so we recognize them.

  TESTIMONY OF KRYSTA HARDEN, NOMINEE, ASSISTANT SECRETARY OF 
    CONGRESSIONAL RELATIONS, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Harden. Thank you, Mr. Chairman and Senator Chambliss.
    My husband, Charles Hatcher, which Senator Chambliss 
introduced, right there; and my baby sister, JaBra Harden from 
Valdosta, Georgia.
    [Applause.]
    Ms. Harden. I have been saying baby sister her whole life, 
so she is probably not happy.
    It is with great pride and pleasure that I am here today 
before the members of the Senate Agriculture Committee as a 
nominee for Assistant Secretary for Congressional Relations.
    Senator Chambliss, who would have ever thought, when we 
first met, that either one of us would be here today in these 
roles? It is such an honor. It is just a special, special honor 
to have you introduce me before the Committee today. I 
appreciate your leadership, and your friendship, especially.
    Thank you, Mr. Chairman. It has been a pleasure to work 
with you on many issues impacting agriculture. I enjoyed my 
years working with soybean growers, a lot of them from your 
state, and I learned a great deal about agriculture and 
conservation from you and your constituents.
    Mr. Chairman, Mr. Chambliss, and members of the Committee, 
I come before you with an open mind and a willingness to work 
with each and every one of you. I will be responsive to your 
requests and respectful of your concerns and questions. And 
while I will not always have the answers you seek, and 
certainly your positions on issues may differ from those of 
USDA leadership, I will be fair and honest and straightforward 
in my dealings with you and your staff. I know that successful 
relationships are two way. There must be open communication, a 
sharing of information, and trust between parties. If 
confirmed, I pledge to do my part in making sure that happens. 
I truly look forward to strengthening old relationships and 
building some new ones.
    As the Committee considers my nomination for this position, 
I hope you will take into account my record, my experiences, my 
commitment of service to the Congress, as well as the functions 
and missions of the Department of Agriculture.
    As a daughter of a Georgia farm family, I have a very 
strong appreciation for American agriculture. I know firsthand 
the challenges that farmers and ranchers face trying to make a 
living in today's tough economic climate. I also know that 
those who work the land are diligent and innovative enough to 
continue to advance agriculture, for my almost 12 years as a 
staffer on Capitol Hill gives me a clear understanding of the 
pressures and demands of your jobs. I know the value of prompt 
attention to your questions and concerns, and the importance of 
listening to and learning about each of your states' unique 
situations.
    I also believe that my experience in the private sector has 
helped me prepare for this role. I have worked with landowners 
from every state and territory. I have traveled extensively and 
seen the variety and diversity of agriculture. I have been 
involved in a wide range of issues, including conservation, 
renewable energy, nutrition, research, and forestry. I look 
forward to working with each of you to make sure our policies 
are forward-thinking and keep American agriculture competitive.
    I am keenly aware of the many challenges we face, including 
implementation of the 2008 Farm Bill, getting economic recovery 
dollars on the ground, addressing lasting implications of 
recent disasters, defining agriculture's role in climate 
change, reauthorizing the Child Nutrition Act, and the list 
goes on and on. But I feel confident that my upbringing, my 
experience and my passion for the land, and those who work the 
land everyday, make me right for this position.
    I look forward to assisting Secretary Vilsack with his 
strong commitment to civil rights at the Department. It is 
crucial that our programs and policies are fair, open for full 
participation, and provide service to all constituencies. If 
confirmed, I pledge to have an open door. I will do all that I 
can to ensure that everyone has access to the same information, 
and discrimination in any form is not tolerated.
    I know, Mr. Chairman, it is totally unlikely I will ever 
win an Academy Award for anything because I am not an actor, 
you know. So I hope you will allow me just a few minutes to 
thank a couple of people who are responsible for me being here 
today.
    Certainly, the first person is President Obama, who is 
nominating me for this position, and Secretary Vilsack, who is 
allowing me to serve if confirmed. I also want to thank my 
sweet husband, Charles Hatcher, who has taught me so many 
things, including that public service is an honor and a 
privilege and should never be abused or taken for granted; that 
working in a bipartisan manner is a tradition in agriculture 
and that compromise can be a good thing.
    Thank you, Charles, for your important lessons, your love 
and your support.
    I also want to thank my wonderful parents, Jamie and Jimmie 
Harden, who are at home in Camilla, Georgia, hopefully watching 
me via Internet, which is hard to believe, but that is true, 
even in rural south Georgia; and my sister, JaBra Harden 
Fuller, who you met. Thank you to the three of them for always 
being there for me, guiding me, loving me, and supporting me.
    I would also like to recognize a couple young boys that are 
here, have taken the day off from school for me; my godson, 
Henry Mitchell, and his brother, Campbell, who are behaving 
very nicely back there.
    I would like to thank some folks who have helped shaped my 
professional life. First, my friends and colleagues on and off 
Capitol Hill, many are in the room today; and my colleagues at 
Gordley Associates; and, certainly, the leaders and staff of 
the National Association of Conservation Districts, where I 
have spent the last 5 years of my career. I especially want to 
recognize Steve Robinson, the president of NACD, who is here 
from Ohio.
    Thank you all for your help and support.
    Mr. Chairman, Senator Chambliss, if recommended by the 
Committee and confirmed by the Senate, I pledge to serve as 
Assistant Secretary for Congressional Relations with honor and 
respect. I look forward to working with you. Thank you.
    [The prepared statement of Ms. Harden can be found on page 
33 in the appendix.]
    Chairman Harkin. Thank you, Ms. Harden. And, again, it has 
been a real pleasure to work with you in various capacities in 
the past. And I would be remiss if I did not say I welcome your 
husband back here, my former colleague on the House Agriculture 
Committee. We served together for a few years on the House 
Agriculture Committee before I came over here. So it is good to 
see Charlie again. Thank you very much. This is going to be 
very good.
    Now, I will turn to Senator Lincoln for an introduction of 
another person who is not very much of a stranger around here.
    Senator Lincoln.

  STATEMENT OF HON. BLANCHE L. LINCOLN, U.S. SENATOR FROM THE 
                       STATE OF ARKANSAS

    Senator Lincoln. Well, thank you, Mr. Chairman, and to you 
and Senator Chambliss both for bringing this group before us 
today. I want to say a special thanks to Ms. Harden, because as 
a farmer's daughter myself, I am glad to know that we will have 
someone over there that has spent a lifetime really admiring 
what farm families do across this great country. So we 
appreciate that.
    But, Mr. Chairman, I am here today very proud to introduce 
a fellow Arkansan, Pearlie Reed, who has been nominated by the 
Obama administration for Assistant Secretary for the 
Administration at USDA. As you have mentioned, Pearlie is 
certainly no stranger. He has a track record in public service 
and working in USDA that few people can match, Mr. Chairman. 
And Pearlie's story starts in Heth, Arkansas.
    Now, Pearlie, you may not know this, but Senator Bennet 
from Colorado is married to a woman from Marianna, Arkansas. 
And so, we have got Phillips, Lee and St. Francis County well 
represented here before the Senate Agriculture Committee.
    [Laughter.]
    Senator Lincoln. But Pearlie's story does start in Heth, 
Arkansas. It is a small town in the Mississippi Delta. In those 
counties that I mentioned, Pearlie is well known, for sure. He 
attained is undergraduate degree from the University of 
Arkansas at Pine Bluff. Incredibly, he began his 32-year career 
with USDA as a student trainee in 1968. From there, he worked 
his way up as a conservation professional, and was eventually 
named chief of the National Resource Conservation Service in 
1998, and served in that capacity until 2002. He has made all 
of us in Arkansas extremely proud. He also served as acting 
assistant secretary for Administration, where he provided 
leadership to more than 300 employees on the Civil Rights 
Action Team.
    Pearlie's accomplishments have not gone un-noticed, Mr. 
Chairman. He was awarded the Presidential Rank Award, the 
highest award for career government officials. Pearlie has 
accomplished much. His stellar record speaks for itself, Mr. 
Chairman. Some might ask what is there for him to accomplish at 
USDA, and everyone in this room knows that USDA faces some 
enormous challenges in serving producers and ranchers across 
the country.
    Should he be confirmed, Mr. Chairman, Pearlie's experience, 
his wisdom, his passion and his background will be an 
invaluable asset in confronting those challenges head on. And 
he certainly has my full support, and I am proud to call 
Pearlie not only a colleague from Arkansas, but a friend, and 
we are delighted to have him here in the Committee.
    Good luck, Pearlie. Congratulations.
    Chairman Harkin. Thank you very much, Senator. And, Mr. 
Reed, again, welcome back to the Committee from appearances in 
the past, and, again, recognize you for an opening statement 
and introduction of family members who may be with you.

 TESTIMONY OF PEARLIE S. REED, NOMINEE, ASSISTANT SECRETARY OF 
         ADMINISTRATION, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Reed. Thank you, Mr. Chairman. I have one family 
member, the boss, my spouse, Lesia.
    [Applause.]
    Mr. Reed. Chairman Harkin, Ranking Member Chambliss, and 
members of the Committee, I am pleased to have this opportunity 
to appear before you today. A special thank you to Senator 
Lincoln for that kind introduction. I would also like to thank 
all of those who have been responsible for my success in life, 
especially my family and the many great men and women who have 
served with during my career at USDA.
    I thank President Obama and Secretary Vilsack for their 
vote of confidence manifested in my nomination for the position 
of Assistant Secretary of Agriculture for Administration. 
Secretary Vilsack has shared with me his vision for USDA. I 
understand and believe in what he would like to accomplish. If 
confirmed, I will be 100 percent committed to ensuring that the 
management apparatus of the Department is focused on the 
efficient and effective delivery of programs and services USDA-
wide.
    I have worked and lived in four of the major regions of our 
great country, the Southeast, Mid-West and West. I have had two 
tours of duty in USDA Headquarters in Washington. During my 
career in and out of government, I have seen all sides of USDA, 
the excellent, the good, the bad and the ugly. I have had a 
remarkable career, rising from a Grade GS-03 to be the chief of 
the National Resources Conservation Service. Also, from 1997 to 
1998, I served as acting assistant secretary for 
Administration, the position I am now being nominated for. I 
have also served as state conservationist for Maryland and 
California.
    I took advantage of training, self-development and other 
opportunities made available to me by USDA. I do not know of 
any other organization where I could have accomplished more, 
and because of these opportunities and my background, I feel 
that I am uniquely qualified to help USDA. And if confirmed, I 
will work tirelessly with Secretary Vilsack, his leadership 
team, the Congress and stakeholders to improve USDA.
    I fully understand the complexities of the Department of 
Agriculture. The complexity is compounded by the massive 
structure of USDA field-based agencies and the system of state 
and county commissions and boards. The management of the 
Department much ensure that the delivery of programs and 
services impacted by this system is made available to all who 
qualify.
    It is with this in mind that I want to emphasize my 
commitment to resolving outstanding civil rights claims and any 
discriminatory employment practices. I believe that if we work 
together, many of the challenges we currently face we can 
correct.
    The management agenda of the Department must include an 
aggressive investment in its human capital. The development and 
selection of top talent are paramount. If confirmed, I will use 
all authorities available to USDA to pursue excellence in human 
resources management. In addition, I believe that all 
departmental administration areas are important. If confirmed, 
I will ensure that departmental administration is providing the 
services needed to underpin the effective and efficient 
delivery of USDA programs and services.
    I will conclude by, once again, thanking President Obama 
and Secretary Vilsack for their confidence in me, and also 
thank you, Mr. Chairman, Senator Chambliss, and members of the 
Committee, for the opportunity to appear there today.
    [The prepared statement of Mr. Reed can be found on page 36 
in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Reed, and we will 
hold the questions for final introduction. And, for that I 
will, to introduce Dr. Shah, turn to our distinguished 
colleague from the state of Washington, Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman, and Ranking 
Member Chambliss, and members of the Committee, for holding 
this important hearing. And I am pleased to be here to 
introduce Dr. Raj Shah, and I urge my colleagues to swiftly 
confirm him as the next Under Secretary for Research, Education 
and Economics at the United States Department of Agriculture.
    Raj has an extremely impressive resume that equips him for 
success at the Department of Agriculture. He earned him M.D. 
from the University of Pennsylvania and a Masters of Science in 
Health Economics at the Wharton School of Business. He has 
attended the London School of Economics, the University of 
Michigan, and has published several articles on the health 
policy and global development.
    Currently, Raj is the director of Agriculture Development 
and Global Development Programs at the Bill and Melinda Gates 
Foundation. In this position, he has worked with some of the 
poorest farmers in the world to help them improve productivity 
and their standard of living. Raj has also served as the 
foundation's director of Strategic Opportunities and as deputy 
director of Policy for Finance for Global Health Programs. In 
these roles, he has helped launch the Global Development 
Program and International Finance Facility for Immunization, an 
effort that has raised more than $5 billion for child 
immunization.
    Raj has the tools, the knowledge, and the unique global 
perspective necessary to excel as Under Secretary of Research, 
Education and Economics at USDA. In his new role, Raj would 
oversee the agricultural research service and cooperative state 
research education and extension services and several other 
important research agencies within USDA. I am glad that 
President Obama has recognized Raj's work at the Gates 
Foundation, which will allow him to bring that unique 
perspective and point of view to USDA.
    Raj is well aware of the power of research to transform and 
improve the lives of everyone. Raj has previously worked with 
the University of Washington, in Washington State, on many 
projects related to animal and human health, and his past 
commitment to various services shows that he will bring 
dedication to the USDA to produce the best agricultural science 
in the world.
    I am confident that he will do all that he can to ensure 
the United States continues to be a leader in agricultural 
research, especially research in the areas of advanced biofuels 
and bioengineering. I hope that we can work with the Committee 
to successfully move his nomination to the floor, so that all 
my colleagues can quickly confirm his nomination. I thank the 
Chairman for this ability to introduce him before the 
Agriculture Committee.
    Chairman Harkin. Thank you very much, Senator Cantwell.
    Dr. Shah, welcome to the Committee. I might just add for 
the record that I was privy to spend a pleasant evening with 
Dr. Shah last year. And it was a very enlightening evening 
because we were talking about health and what Dr. Shah was 
doing with the Gates Foundation. So it was a very pleasant 
revelation when later on, I found out that you had been 
nominated for this position.
    So congratulations, welcome, and if you would introduce 
your family members who are with you so we could recognize 
them.
    Dr. Shah.

 TESTIMONY OF RAJIV J. SHAH, M.D., NOMINEE, UNDER SECRETARY OF 
     RESEARCH, EDUCATION AND ECONOMICS, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Shah. Thank you, Mr. Chairman. I do have a large family 
with me today. So my wife, Shivam Mallick Shah behind me; my 1-
year-old daughter, Amna, who is sleeping over here; my son, 
Sajan, who out of deference for the Committee today wanted to 
wear a shirt with a truck on it, but we convinced him 
otherwise.
    [Laughter.]
    Mr. Shah. My mother and father, Rina and Janard [ph.]; and 
my in-laws just behind them, Kamala and Isha Mallick.
    Chairman Harkin. Well, thank you very much.
    [Applause.]
    Mr. Shah. Mr. Chairman, Senator Chambliss, members of the 
Committee, I am honored to be nominated by President Obama to 
this position, and I appreciate Secretary Vilsack's confidence 
in me in his invitation to join his leadership team.
    Thank you, Senator Cantwell, for that very kind 
introduction and for your commitment to the people of 
Washington State. It is always fun to think about the great 
work that is happening in Washington State on agricultural 
research and any number of other scientific endeavors.
    I am excited by the opportunity to lead the research 
portfolios of the Department at a time when this work touches 
so many of our national challenges: agricultural production, 
nutrition, food safety, energy independence, and the 
sustainability of our natural resources. I also recognize the 
responsibilities of serving as the chief scientist at USDA. 
President Obama has often emphasized his commitment to ensure 
decision making is based on scientific evidence, and if 
confirmed, I will seek to carry out that mandate.
    In my work at the Gates Foundation, I have had the 
opportunity to meet agricultural scientists from around the 
world, and I have drawn inspiration from many of them. One of 
my heroes is Dr. Norman Borlaug, the only agricultural 
scientist to win the Nobel Peace Prize--perhaps there should 
have been many others--for his use of science to help prevent 
widespread starvation. His life is a testament to the fact that 
effective agricultural research, coupled with the determination 
to make the world a better place, can help address our most 
pressing challenges at home and abroad.
    These challenges have been stated clearly by Secretary 
Vilsack. Food production must meet the needs of a world 
population that will exceed 9 billion in 2050, and it must do 
so while taking into account a warming planet and the need to 
use nitrogen, water and other inputs, far more efficiently.
    Agriculture, including forestry, has the potential to 
provide a sustainable source of energy at a time when the 
president, the secretary and members of this committee have 
highlighted the need for our nation to work toward energy 
independence. Second and third-generation biofuels and advanced 
biomass strategies are critical to that endeavor.
    Americans following the leadership of this committee are 
increasingly aware of the critical links between agriculture 
and human health. All Americans rely on strong agricultural 
science as it relates to the safety of our food supplies, 
protection against animal diseases, including zoonotic diseases 
that transmit from animals to humans, and the critical role 
that a healthy, nutritious diet can play in preventing 
debilitating chronic disease, diseases like obesity, diabetes 
and hypertension.
    We can and should do more to identify these links, connect 
to the health community, and work to ensure every American can 
identify and access a healthy diet. In 1977, this committee 
changed its name, as you know, to add nutrition. If confirmed, 
I hope to benefit from your ongoing guidance in carrying out 
this mandate.
    Last year, an additional nearly 100 million people entered 
into extreme poverty around the world, resulting in nearly 1 
billion people going hungry. President Obama has called for our 
agricultural research, education and aid institutions to work 
together to demonstrate American leadership in preventing 
global hunger. If confirmed, I will seek your guidance on how 
to contribute to this goal.
    With the founding of the Land-Grant University System in 
1862 and the critically important 1890 schools, the United 
States became the world leader in agricultural production, 
based on the strength of its research and by linking research, 
education and extension.
    The Agricultural Research Service, which developed the 
original method for large-scale production of penicillin, and 
did so in time for its use in World War II, also has a storied 
history. Last year, this committee laid the groundwork for 
taking this leadership into the future by creating the National 
Institute of Food and Agriculture. Establishing a new national 
institute is a unique opportunity to create a strategic focused 
and results-oriented research enterprise. I believe there are 
important lessons to be learned from the National Institutes of 
Health and the National Science Foundation in carrying out this 
task, and if confirmed, I look forward to working with the 
Committee to implement this important provision of the Farm 
Bill. The Economic Research Service and National Agricultural 
Statistical Service also represent critical assets at any 
effort to make research and policy relevant to American 
producers and consumers.
    I share Secretary Vilsack's commitment to addressing civil 
rights concerns as a top priority for this Department. And also 
share the secretary's aspiration to modernize the Department's 
technology platforms. If confirmed, I hope to use these new 
technologies to improve the transparency and outcomes of the 
research investments we made.
    I became a medical doctor to care for and, hopefully, heal 
individuals. I quickly became absorbed in broader issues of 
public health, as I felt that was a path to serve larger 
populations. That path has given me a lot of great 
opportunities to help address child obesity in the Philadelphia 
schools, to help children in poor countries gain access to 
life-saving immunizations, and, most recently, to launch an 
agricultural development program to address the global crisis 
of extreme hunger and rural poverty.
    In each area, I have tried to learn from others, be 
pragmatic and fact-based in the pursuit of solutions, and stay 
focused on the goal of making a difference in people's lives. 
If confirmed, I hope to bring that same spirit of learning, 
energy for service, and commitment to outcome to this position.
    Thank you, Mr. Chairman, the Ranking Member, and the 
Committee for the opportunity to appear before you today. I, 
again, want to thank President Obama and Secretary Vilsack for 
their confidence, and my wife, Shivam, whose support allows me 
to embrace this important challenge and opportunity. Thank you 
very much.
    [The prepared statement of Mr. Shah can be found on page 39 
in the appendix.]
    Chairman Harkin. Dr. Shah, thank you very much for your 
statement, and all of you.
    He has a pending engagement; he has to leave, so I will 
yield now to Senator Chambliss.
    Senator Chambliss. Well, thank you very much, Mr. Chairman, 
and I apologize for having to step out and do a radio show, but 
thanks for letting me go first.
    Mr. Tonsager--am I saying that right?
    Mr. Tonsager. Yes, sir.
    Senator Chambliss. If you are confirmed, you will oversee 
all of the rural development mission area. The rural electric 
programs are vital to the nation, and especially to my home 
state. In Georgia, my electric co-ops, as well as the municipal 
systems, are what we call MEAG and Georgia Power.
    If teamed up to be a new nuclear power facility on an 
existing site, what is known as Plant Vogtle, since nuclear 
power is a non-carbon emitting source of power, it would seem 
to me that this project would be a perfect candidate for our 
U.S. baseload financing.
    Can I get a commitment from you to work to re-establish 
baseload financing for nuclear power at RUS?
    Mr. Tonsager. I am not entirely familiar with the issue 
relative to that at this time. I understand that there are 
prohibitions in place regarding the use of financing for 
nuclear power or coal-based power through the rural utility 
service. I would be anxious to work with you to go further on 
the issue because I am a great fan of the rural electrical 
systems, and I know the needs regarding baseload power and the 
problems associated with baseload power.
    Senator Chambliss. Well, I appreciate that. It is 
unfortunate we did not build more nuclear plants 20 years ago 
because it has turned out to be the most efficient, cleanest 
way we can produce it. And going forward, I think it is going 
to be important for rural America that we are able to provide 
them that clean, efficient power. And nuclear seems to be the 
best way.
    Ms. Harden, rather than a question, it is just a comment to 
you. There is no more important position than yours when it 
comes to dialoguing with members of this committee, as well as 
other Members of Congress. You have vast experience that lends 
you to be very well-qualified there.
    I was pleased to hear you say that you recognize there are 
going to be differences. You had your difference with 
administrations that were in place when you served on the Hill, 
and Secretary, or now Senator Johanns, and I had significant 
differences from time to time when he was at the Department. 
But we were always able to work through them, and we worked 
through them because of the dialog.
    I have no doubt you are going to be very efficient in 
staying in touch with folks on both sides of the aisle here. 
And, again, I just thank you for your willingness to serve and 
let Charles go play golf more often or something there.
    Ms. Harden. I think he will enjoy that. And I am certain 
that my private line will be on your speed dial.
    Senator Chambliss. It will be.
    Mr. Reed, again, thank you for your commitment. You are 
going to be overseeing a very important function that I have a 
significant interest in and Senator Harkin and I have talked 
about over the course of the last several years, and that is 
trying to make sure that we get our IT updated within our FSA 
offices.
    We have got farmers who sit in their tractors now, and with 
their GPS's, they kind of mash a button and the tractor puts 
out all the fertilizer that they need, in the right spots they 
need, at the amounts that are needed. And they have got to go 
down to the FSA office, rather than sit at their computer, and 
fill out all their forms by hand.
    We have got to move away from that. We are in a true IT 
age, and we have not made the commitment that we need to make 
to provide you with the resources to do this. But I hope you 
will continue to oversee that, and you will let us know what 
those resource needs are, so that we can move in a positive 
direction relative to the IT world and agriculture.
    Dr. Shah, I am a huge fan of research. I do not care 
whether it is agriculture, medicine or defense areas. I think 
it is foundation of where farmers are going to be 20 years from 
now, and it is just critically important that we continue to 
maintain a good source, from a funding standpoint as well as 
otherwise.
    I was pleased to hear the president set an ambitious goal 
of devoting more than 3 percent of GDP to research and 
development in a statement he made not long ago, but, 
unfortunately, I did not hear him mention agricultural research 
in there.
    I would like to ask you for your commitment to lean on the 
administration to ensure that agriculture gets its fair share, 
from a resource standpoint, from the administration when it 
comes to budgeting agricultural research along with other areas 
of research.
    Mr. Shah. I absolutely can offer that commitment. I believe 
if the agricultural research community, as it already does, can 
continue to provide a high level of scientific rigor in the 
decisions that it makes about resource allocation, and focus 
the work on achieving important results for producers and also 
for consumers, and be more transparent in the process, that it 
should be possible to advocate for that type of increased 
commitment to agricultural research.
    Senator Chambliss. Thank you very much. And again, thanks 
to all of you for your willingness to serve.
    Thanks, The Chairman.
    Chairman Harkin. Thank you very much, Senator Chambliss.
    Mr. Tonsager, again, in the stimulus bill that we put out, 
we put in $2.5 billion to get broadband out as fast as 
possible, $2.5 billion. Now, the public comment period is still 
open--I do not know when it is closing, but pretty soon I 
hope--and this is something that has not been really 
aggressively pursued for the last several years.
    If confirmed, will you work to get economic recovery 
funding on the ground as quickly as possible, again, while 
maintaining accountability and transparency, to ensure that 
these taxpayer dollars are being invested as effectively and 
efficiently, but as rapidly as possible, to get broadband out 
as soon as we can?
    Mr. Tonsager. Absolutely. I think it is extremely important 
we move as quickly as we can. I think we need to coordinate our 
efforts closely with the NTIA and develop clear understandings 
with them about getting the resources out. I think it is very 
important we look at affordability for those users of broadband 
access in rural areas, and try to make it as affordable as 
possible, so it is not only available but it is accessible by 
those people who have the resources or the need to use 
broadband communications.
    Chairman Harkin. I am glad that Ms. Harden's folks must 
have broadband where you are.
    Ms. Harden. We just got it.
    Chairman Harkin. But I am still chafing. I live in a town 
of 160 people, and I still do not have it. So we have got it 
out. Maybe not the towns, but we have got to get it out to our 
rural communities.
    Mr. Tonsager. I believe that it is certainly one of the top 
priorities for me walking into this, to address this quickly as 
possible.
    Chairman Harkin. I appreciate that.
    Again, Ms. Harden, thank you again very much for your 
willingness to serve and for all of your past working with us 
here. As head of congressional relations now, I do not know if 
I can add anything, except that when that over committee over 
on the House side, when they call you up about something, just 
tell them you have got to check with us first. OK?
    [Laughter.]
    Ms. Harden. I will try that. I will see if it works.
    Thank you, sir.
    Chairman Harkin. Thank you very much, Ms. Harden.
    Mr. Reed, as a follow up on that question that Senator 
Chambliss said, we put $50 million mandatory funding for FSA 
computers, and then we put 22 million in fiscal year 09 
appropriations, and 50 more million in the Recovery Bill, the 
Stimulus Bill. So we need to get these upgraded as soon as 
possible. I just want to get those figures out there, that that 
money's there, and we have to get this done as soon as 
possible.
    But the one thing I just want to cover, Mr. Reed, is a 
program that we started in the 2002 Farm Bill. There is a 
provision in that farm bill, which is permanent law, which 
states--well, I don't know if I can--it basically says that 
every department and agency of the Federal Government shall 
give a priority to bio-based products in their purchasing, as 
long as they are equivalent in price performance and 
availability.
    Well, we have been pushing this for a long time. We have 
had hearings on it. The Department of Defense had a wonderful 
couple days--what will I call it, fair or something like that, 
for people to come in and exhibit what they had. But we still 
have not gone too far. We had a labeling program to label it. 
That was established in 2002, and we still do not have it. We 
still do not have a labeling program for that.
    Secretary Vilsack, when he was here for his nomination, 
said that the program is a priority, and I know since that 
time, he has reached out to the other departments. He has 
brought it up in a cabinet meeting at the White House. I know 
that other secretaries did not even know they had that 
responsibility, but they do. It is in permanent law, and does 
not say ``may'', it says ``shall''. So it applies to every 
department and every agency.
    So I guess my question to you is, would you be willing to 
personally champion expeditious implementation of this bio-
based markets program, including the labeling program?
    Mr. Reed. Absolutely, Mr. Chairman. I have already taken a 
look at that, and I know that from a USDA perspective, we can 
and need to employ all of the procurement authorities we have 
to do as much as we possibly can at USDA. And, also, I see it 
as my role, if confirmed, to make sure that I keep abreast of 
what is going on governmentwide and work with Secretary Vilsack 
so that he knows and understands, from an operating, practical 
level, what is going on and where we might have opportunities 
to take--where we might have the opportunity to take advantage 
of ratcheting up the focus on the 2002 Farm Bill.
    Chairman Harkin. Mr. Reed, would you be willing to have 
USDA report back to this committee within 90 days, that is 3 
months from now, of taking office, so we can learn of the 
progress that you are making on this? This is something that 
has just been sitting there for far too long, and we have got 
to get hot on it.
    So I would like to ask if you would come up here in 3 
months--that would be the end of the summer sometime, maybe--
let's see. This is May, June, July, end of July, maybe even the 
first of September, something like that, to report on that?
    Mr. Reed. So ordered.
    Chairman Harkin. All right. Thank you. I appreciate that 
very much.
    Dr. Shah, again, thank you for your willingness to serve 
and take over this important position. Someone noted--I do not 
know who it was--our middle name is nutrition. And we have a 
big responsibility this year--the only thing that we really 
have to do in this committee, aside from nominations, is we 
have to reauthorize the Child Nutrition Bill. That is school 
lunch, school breakfast, the WIC program, afterschool, summer 
feeding programs, and the adult and child care food programs.
    We are working closely with the House--it is not on the 
House Agriculture Committee, it is in the House, Education and 
Labor Committee. But we have jurisdiction here. And we need 
your best input into that and your help, so that we can have 
the best science and the best research that is available to us 
from the National Academy of Sciences and the Institute of 
Medicine and others to make sure that we get better food, 
better quality of food for our kids in school, and updating the 
nutritional standards, which have not been updated in almost 30 
years. And a lot has changed in 30 years.
    So I just want your assurances that you will be working 
with us closely as we reauthorize this bill to give us the best 
possible science that we can get to apply to this.
    Mr. Shah. Thank you. I absolutely can offer that assurance. 
As you note, the science community, whether on the economic 
research side or the agricultural research side, has a 
tremendous amount to offer through this reauthorization and to 
support those programs.
    I also thank you for mentioning the linkages to the health 
community and the health research community, where a lot of 
that work does also take place. And one of my aspirations is to 
help build those bridges in an effective way to further our 
collective goals.
    With respect to updating the standards, I hope to be able 
to work with members of the Committee to understand how to most 
effectively do that with a real science-based approach. So, 
thank you, and absolutely.
    Chairman Harkin. You bet. Thank you very much, Dr. Shah.
    Now, I will yield to Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. My 
comments and questions are directed to Mr. Tonsager and Dr. 
Shah. They arise from a specific recommendation recently by the 
head of EPA taking a look at corn ethanol and its environmental 
effects. The predicament is this.
    For many years, starting with President Bush, now with 
President Obama, presidents and everyone else have said we have 
a dependence upon imported oil, which is dangerous in terms of 
our strategic position in the world. Agriculture stepped 
forward and said that, Mr. President, in both cases, we can be 
helpful. And the first attempt was with corn ethanol. And we 
have talked, all of us, about cellulosic ethanol for the last 
10 years; although, the past administration did not move very 
rapidly in terms of research funds; had them appropriated by 
all of this, but simply could not get through the bureaucracy. 
I hope that will not be case with the current administration 
and the Department of Energy.
    But my point currently is that on top of all of this, EPA 
has come up with a strange ruling that the 20 percent benefit 
that would come from ethanol as opposed to the regular gasoline 
formulations is not going to be met because corn that otherwise 
would have been available for foreign countries to feed people 
would not be available to them because it is being used for 
corn ethanol in the United States. Therefore, these foreign 
countries will chop down trees, will do environmentally 
unsatisfactory things, all based upon the supposition that corn 
would not be exported to them, which, on the face of this, is 
ridiculous.
    The point that I am hopeful you are able to make at USDA is 
that American agriculture can rise in productivity to meet 
whatever challenges there are in an export market. As a corn 
farmer, I know our livelihood is dependent, for years, on our 
ability to export. We are desirous of feeding the world if we 
can, but the world is so bollixed up in terms of the rural 
trade system to begin with, even moving the corn is very 
difficult.
    But to counter back that, somehow or other, we are 
responsible as corn farmers for the chopping down of the trees 
of Brazil or anyplace else is, on the face of it, ludicrous. 
And I make that comment, I suppose, with some reserve because I 
found the whole--this is outrageous.
    Here we are attempting in agriculture, with biofuels, to 
make a difference in national security, and having some 
success, and also having many obstacles, given the ups and 
downs of the price of oil, the differentials and so forth in 
the markets. And the reliance upon biofuels is well taken, and 
we have already mandated that in legislation we passed in 2007, 
but without the research, we have a few thousand gallons of it 
somewhere. This is not a replacement in terms of the hundreds 
of billions of gallons that we are supposed to be coming 
forward with.
    Now, what I would ask either of you is, first of all, I 
presume your cognizant of the problem, the EPA ruling most 
recently. And, second, what can we do at USDA so that, first of 
all, the rest of the government is informed as to what actually 
happens in terms of productivity and agriculture; our desire to 
feed, our desire also to provide energy for our country to 
displace imported oil?
    I think these are vital objectives.
    Mr. Tonsager, do you have a comment? And then Dr. Shah.
    Mr. Tonsager. I cannot speak to the science aspects of 
this. I have not read the ruling or the summary of the ruling 
at this time. But I can speak to the economic aspects of rural 
America because I have been intimately involved with ethanol 
for many years, of course, as you have, Senator.
    From my perspective, what I want to see us do is make sure 
we build an economically sustainable, alternative energy 
system, including corn-based ethanol, cellulosic ethanol, 
biofuels, as broadly and as logically and sensibly as we can. 
Even now during my time at the Farm Credit administration, I 
get to see the economic challenges that it is currently faced 
with as a system, and I still believe greatly in the economic 
opportunities associated with that. And I can assure you, our 
agency will be heavily involved in working with the biofuels 
industry from the economic perspective.
    Senator Lugar. Great.
    Dr. Shah?
    Mr. Shah. Thank you. I, too, am aware of the problem, 
perhaps more from the science and production aspects than from 
the rural economic aspects. And so, I look forward to working 
with my colleagues because I think this is the kind of problem 
that requires that cooperation.
    Meeting the renewable fuel targets broadly, of course, will 
require increased contributions from Agriculture. I am glad to 
hear the way you framed the comments about cellulosic 
technology. There clearly are research opportunities to help 
develop new technologies that will power second and third-
generation biofuels to help fill the gaps, and what people 
estimate will be the gaps, on the renewable fuel targets.
    I think that will require a more focused and results-
oriented approach with the research funding and also public/
private partnerships since some of the best research on those 
programs might be happening in other parts of the world and in 
other sectors outside of the pure public sector or university 
system.
    With respect to agriculture productivity, I think you are 
absolutely right. I was visiting a program at the University of 
Nebraska at Lincoln, and they are getting significant yield 
improvements on experimental stations, and doing it with a real 
focus on nitrogen and water-use efficiency. So without being 
very responsible on the use of inputs and being more precision 
oriented in their production, they are getting significant 
yield improvements. That seems to me like the kind of research 
that will enable a broader and more successful future in this 
area, and it ought to be supported broadly where it is being 
done very well.
    Senator Lugar. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much, Senator Lugar.
    Senator Thune also has another engagement he has to leave 
for, but I wanted to recognize him for the purposes of a 
statement and other things right now.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. I do not want to 
get in the way. I know you have other people who have been 
waiting here.
    I want to associate myself with the comments from the 
Senator from Indiana with regard to that issue. I absolutely 
agree with everything you said.
    I do want to thank all our nominees for their willingness 
to serve. We look forward to working with each of you in your 
new positions. This is an important time for agriculture. I 
particularly want to recognize a fellow South Dakotan, Dallas 
Tonsager.
    Congratulations to you, Dallas. He is someone I have worked 
with for a long time. He has held a number of important 
positions in our state that give him great experience for this 
job. And most importantly, he is a farmer, so he relates, I 
think, to the day-to-day challenges that we face in 
agriculture.
    So I would like to submit a statement, if I could, for the 
record, Mr. Chairman. But I do want to recognize our noms, 
thank them for their service, and look forward to working with 
each of you.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. John Thune can be found on 
page 32 in the appendix.]
    Chairman Harkin. Thank you very much, Senator Thune.
    Now, I will turn to Senator Casey.

 STATEMENT OF HON. ROBERT P. CASEY, JR., U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Casey. Mr. Chairman, thank you very much. and I 
want to thank each and all of the nominees for your willingness 
to serve, your commitment to public service, and that of your 
families. That is one of the reasons why Chairman Harkin and 
other chairmen in the Senate recognize family members, is 
because we know when you make a commitment to public service, 
you do not do it alone, and that commitment is shared by your 
family. So we are grateful for that.
    I, like many members of this committee, look forward to 
getting Department of Agriculture, the Department itself I 
should say, fully staffed so the Department can continue 
working on so many of the issues we are here to discuss today.
    The nominees before the Committee today will be in charge 
of agencies and missionaries that are critical to families 
struggling to make a living in rural Pennsylvania, as well as 
rural America. For our farmers, that means, unfortunately, in 
this economy, dropping prices and other challenges they have in 
their lives; the affordability of risk-management loans and 
tools to protect farmers from disasters; and for families 
living in rural communities across Pennsylvania and across the 
country, it means installing broadband service throughout a 
state like ours, as well as the country. We need upgrades to 
rural hospitals, keeping country roads and sewer systems 
operating, and other types of rural development. So we all know 
that agriculture itself is not immune to the global and 
national economic crisis.
    We have the opportunity at hearings like this to be able to 
associate ourselves more directly with witnesses. And I was 
pleased that Senator Cantwell was able to provide that 
connection to Dr. Shah. I also want to make a connection, and I 
wanted to do it in my time. I did not want to have the 
Committee's time used for this because it is my preference to 
do this.
    So, Dr. Shah, I want the record to reflect that you have 
two degrees from the University of Pennsylvania, the Wharton 
School and the University of Pennsylvania, School of Medicine, 
two very challenging assignments to get degrees from both of 
those institutions. So we are grateful. And I know you also 
helped Governor Rendell in his transition. He has had several 
good years as our Governor, and I know you were part of that 
early work. Let me start with you not only for that reason, but 
that connection helps.
    I wanted to talk to you about, just for a moment in the 
limited time we have, dairy farmers. We have had a terrible 
problem in our state, where so many dairy farmers have lost not 
just income; they have lost their livelihood, destroyed, 
hundred and hundreds, year after year.
    One of the areas of responsibility that you would have upon 
confirmation is the Economic Research Service as well as the 
National Agricultural Statistical Service, and you made 
reference in your statement to both, I believe, or at least 
one.
    These two agencies could help us calculate the 
reimbursement to dairy farmers for problems we had a couple of 
years ago, in particular, 2006-2007, and the milk powder 
reporting problems that cost dairy farmers millions of dollars.
    Is there anything you can say about that, just 
parenthetically, by way of a statement on the record, to ask 
you to work with us on this challenge, as well as your 
colleagues, because it is a problem I know that Secretary 
Vilsack is well aware of, the general challenge that dairy 
farmers have.
    But, in particular, is there anything you can say about it 
today or supplement the record?
    Mr. Shah. Well, thank you for your comment and your kind 
additional introduction. I have a lot of faith and support from 
Pennsylvania, and I love spending a lot of time there. And I 
spent a lot of time there because school took me a while.
    I do think I would like to follow up on that very 
specifically with your staff and with your office.
    Senator Casey. OK.
    Mr. Shah. It is clear the ERS and NASS both contribute to 
that, and there are, perhaps, other resources within the 
research portfolios that could both retrospectively look at 
that and make those calculations as you have defined, but also 
identify research priorities that can be supportive of that 
general industry, both in Pennsylvania and in other places. And 
so, I have done more work on productivity and production in 
that area, but look forward to learning more about that 
specific issue with you and your team.
    Senator Casey. Thanks very much. And I hope someday, you 
are able to move back to Pennsylvania.
    Mr. Shah. Thank you.
    Senator Casey. To live and to pay taxes and all.
    [Laughter.]
    Senator Casey. We are grateful. Thank you, Doctor.
    I know I only have very limited time. Maybe I will submit 
this question for the record just for Mr. Tonsager.
    Senator Casey. The question pertains to not just rural 
development, more broadly, but, in particular, strategies that 
I know you have thought about and will be able to implement to 
get targeted economic assistance or economic revitalization 
assistance. I know a good bit of that is in the Recovery and 
Reinvestment Act, but I just wanted to put that on your plate 
even though I am out of time. Maybe we will submit it for the 
record, so you could provide the Committee with an answer.
    Thank you very much.
    Chairman Harkin. Thank you, Senator Casey.
    Senator Cochran.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Mr. Chairman, thank you. Let me join you 
and others in congratulating this impressive panel of nominees 
to serve in very important, high positions in the Department of 
Agriculture. I have been impressed with the comments that I 
have heard today from our witnesses, and I am glad to have an 
opportunity to personally congratulate you on your nominations, 
and assure you that we want to partner with you in helping to 
identify ways to help sustain the economic vitality of farms 
and ranches across America, and also help ensure that we remain 
competitive in the international marketplace.
    So much of what our farmers and ranchers produce, products 
that come from our farms, our sold in the international 
marketplace. I know that is particularly true in some of the 
traditional southern crops and other activities, even 
agricultural activities. And we are also involved in 
competition from other countries who are competing with us for 
new markets and to deal with the challenges of having not only 
nutritious and sound products to sell, but also making sure 
that they are priced at a competitive level.
    So I am here just to wish you well.
    I was very impressed reading the background of Mr. 
Tonsager. You have, obviously, had a tremendous amount of 
personal experience, and your educational background certainly 
seems to me to make you an ideal person to be selected to serve 
in this important position. So we look forward to working with 
you.
    Krysta Harden I have known for a good while. Her husband, 
Charles, and I got to know each other when I was a member of 
the House of Representatives, and that seems like a long, long 
time ago when our paths would cross in the House of 
Representatives. But I am confident you have the ability and 
the background. Your experience here working in the Senate, as 
well as in the House, makes it very clear to me that you are an 
excellent choice to be Assistant Secretary for Congressional 
Relations, and I look forward to a close working relationship 
during your service at the Department.
    Pearlie Reed is a name that has been well known down in the 
south for a good while. He is from our neighboring state of 
Arkansas, and he has a lot of friends in Mississippi, and he is 
highly regarded. And I am glad to be here today to welcome you 
and to compliment you on your previous service. Obviously, you 
have done a good job; people know about it. And you have been 
asked and called on to serve again at the Department, and we 
appreciate your willingness to do that and wish you well.
    Dr. Shah, I was quite impressed with your background and 
your testimony today. I am very impressed with the challenges 
that you understand we have in the area of research, education 
and economics. You will come to know, if you do not already 
have these pieces of information, that our state is very 
heavily engaged in agricultural research, not only the land-
grant university assets and resources we have, but a lot of 
individual targeted research programs are located in our state. 
Aquaculture is one of them, but in many other areas, too, we 
are heavily engaged. And so, I know our paths will cross often, 
and I look forward to getting to know you better. And I 
congratulate on your selection and wish you well. I hope you 
derive a great deal of satisfaction in the opportunities you 
will have at the Department of Agriculture.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much, Senator Cochran.
    Senator Klobuchar, I would just note that a roll-call vote 
was just called at 11:53.
    Senator Klobuchar.

STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Klobuchar. OK. I think I can make it.
    Well, congratulations to all of you. I did notice, Dr. 
Shah, that when Senator Casey was talking about all of your 
credentials, your daughter woke up, so she must have a good 
idea for that or for Pennsylvania.
    I wanted to talk a little bit about, first of all, the H1N1 
virus. Just so you know, our state, the make up of our 
agriculture, we are No. 1 in the country for turkeys, little 
did you know; No. 3 for hogs. We, obviously, have a lot of 
crops and a very vibrant alternative energy economy. We have an 
aggressive renewable electricity standard, 25 percent by 2025, 
so we have done a lot with wind and solar in our rural areas as 
well as biofuels. We are one of the leading states with 
biofuels.
    So we have a pretty well-rounded agricultural sector, in 
addition to food processing with Schwans and food companies, 
General Mills. We are ninth in the country for Fortune 500 
companies. So we have a broad economy in our state.
    But one of the things that has been very damaging for our 
pork producers has been the name, which I will not say, of the 
flu, which we call the H1N1 flu. And I wonder, Ms. Harden, with 
your role with congressional relations, if you could talk a 
little bit about how we can stop this from happening again, 
where, one--and maybe, Dr. Shah, you can confirm this, the fact 
that you cannot get this flu from eating bacon, which is what I 
served this morning at my Minnesota breakfast to prove the 
point----
    Ms. Harden. Good for you.
    Senator Klobuchar [continuing]. Or from any kind of pork.
    But how do we stop--the same thing happened to peppers with 
the salmonella scare, when it turned out it was peppers. And 
the tomato industry got in trouble when it was not tomatoes.
    Could you please comment on that?
    Ms. Harden. Well, I think if I had the perfect answer, I 
would be pretty rich and not need to go to the USDA. But I 
agree that we need to get our arms around it very quickly and 
work very aggressively to make sure education is out there and 
that research is made aware, and the facts.
    Obviously, the other name, the common name, is an easy buzz 
word that the press glommed on to. I think the president and 
the secretary should be commended, as well as the members of 
this committee and Members of Congress, to call it by its 
official name and encourage the press to do so, and the public. 
But it was a little late it seems because the name had stuck.
    So I think we do have to be much more aggressive in getting 
the word out, making sure that all of you have the information 
firsthand in what is going on, quickly, so you can get the word 
out to your press and your states and work very aggressively to 
make sure we are getting the education and the word out there 
through our research department and our nutrition department as 
well.
    Senator Klobuchar. OK.
    Dr. Shah?
    Mr. Shah. Well, thank you. I agree with your sentiments and 
would just add that I think the principle of strong science 
underpinning the communications statements we make on issues 
like this is critically important.
    In this particular case, I just in Seattle got a lot of the 
information around this particular issue from CDC briefings. 
And I think one of the opportunities will be building very 
strong linkages between the agricultural research communities 
and the CDC and other agencies like that, so that if more 
people are watching and learning from that kind of a vehicle, 
that they are communicating the types of things that are 
consistent with sound, interagency science. So I think building 
those linkages becomes very important to underpinning a strong 
communication strategy, but the science seems very clear.
    I would also just add, in terms of your comments about 
Minnesota, that I have had the opportunity to work with great 
crop scientists, and wheat and other crops, and also with 
economic modeling teams at the university there. And they 
really are outstanding and doing some of the best work in the 
world on those issues.
    Senator Klobuchar. And you mentioned Norman Borlaug, who 
did a lot----
    Mr. Shah. Of course.
    Senator Klobuchar [continuing]. Of his work at the 
University of Minnesota and some work in Iowa as well.
    The other thing, just along these lines of some of the 
cutting-edge work in Minnesota, is the University of 
Minnesota's ability to catch the cause of a lot of the problems 
we have had with food safety, whether it was the University of 
Minnesota that traced it and the Minnesota health department 
did a peanut issue. Then, we also had the salmonella I just 
mentioned from the peppers. That was also traced by the 
Minnesota group.
    I do not want to spend our time right now talking about 
that, but I hope you will look into that model. Senator Durbin 
and I and others, on a bipartisan basis, have worked on this 
food safety bill. And we are going to be hoping to have, as 
part of that, some of these regional models of how to catch 
these things sooner where the problems arise, as well as, you 
know, the USDA has done some good work with food safety. And we 
have this problem with the FDA, and we need to figure out how 
to merge these two systems. So I just wanted to put that on 
your radar screen.
    Just one last question, Mr. Tonsager, on the broadband. You 
were asked about the broadband and the speed of getting the 
broadband out.
    Can you talk about how you are going to coordinate with the 
other program coming out of Commerce with those broadband 
grants, and if you have talked about that yet, from your perch, 
with rural development?
    Mr. Tonsager. Of course, until we get the opportunity to go 
there and learn a little more, it will be difficult. I do have 
personal relationships with people involved with the NTIA, 
working, and so I am hopeful that that will work well with 
them. And I am very excited about the opportunity that, 
perhaps, Jonathan Adelstein will get to join me at the RUS. 
Jonathan's background----
    Senator Klobuchar. I know him.
    Mr. Tonsager [continuing]. Old friend of mine, Jonathan as 
well, that I know he brings great capacity to that area.
    I would like to get into the dialog quite a ways before 
really saying how we might do it. It just strikes me that there 
are similarities to other kinds of things we have done in the 
past, especially in the other utility programs, about 
affordability for people in more remote areas that might be 
more economically challenged.
    So, from my perspective, I will probably start with that in 
the discussion, how do we make it affordable to people as well, 
not just available, but so they can use it well. And I think 
that is an important aspect to bring to it.
    But I believe that there is a great opportunity to 
coordinate with Commerce and with the NTIA, and working 
together with that. I think Secretary Vilsack has been actively 
engaged in dialogs regarding communications, from what I have 
heard, so I am excited that we can work closely with the other 
entity that has received resources. But I do know that the 
service to the rural areas is the mission of our deed, and I 
want to make sure that we are fully engaged with that as 
quickly as possible.
    Senator Klobuchar. Thank you. Because Senator Thune and I, 
and a few others here, I think, serve on both Agriculture and 
Commerce, so we will be able to be the intersection of making 
sure these programs are coordinated.
    Mr. Tonsager. I am sure we have to get service to Murdo, 
South Dakota before John will be particularly happy.
    Senator Klobuchar. All right. I could give you some even 
smaller towns in Minnesota. Thank you very much.
    Congratulations to all of you.
    Chairman Harkin. Well, listen, thank you all very much for 
all of your past things that you have done on behalf of 
agriculture and health in America. Congratulations on your 
appointments. We look forward to working with you.
    Again, I want to join with what Senator Casey said. When 
you enter public life like this, it is a family affair; no 
doubt about it. Spouses and families are involved in this in 
many ways, and so I want to thank all your family members.
    Dr. Shah, I see your dad has got the 8-month-old 
granddaughter in his arms back there. I have an 8-month-old 
granddaughter, so it appeals to me very much.
    But thank you all for being willing to serve. We look 
forward to working with you.
    I would just state for the record that we would like to 
have all written questions from members of the Committee in by 
5 this afternoon so that we can get those questions to you and 
you could respond. And, hopefully, we will be able to report 
your names out of the Committee rapidly and get you down to 
work as soon as possible.
    With that, if there are no further questions, we have got 
to go vote. Thank you very much. The Committee will stand 
adjourned.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                              May 7, 2009




=======================================================================


</pre></body></html>
